______________________________________________________________________




                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audit Services




  Special Report

  Management Challenges at the
  Department of Energy




              Table of Contents
  DOE/IG-0782                                    December 2007
_____________________________________________________________________
                                 Department of Energy
                                     Washington, DC 2 0 5 8 5

                                     December 1 3 , 2 0 0 7

MEMORANDUM

FROM:
                       Inspector General

SUBJECT:               INFORMATIOIV: Special Report on "Management Challenges at the
                       Department of Encrgy"

BACKGROUND

Annually, the Office of Inspector General identifies what it considers to be the most significant
management challenges facing the Department of Energy. Now required by the Reports
Consolidation Act of'2000, this effort also takes into account emerging issues facing the
Department. Our conclusions are based on an examination of the results of current Office of
Inspector General audits, inspections, and investigations as well as an assessment of the
Department's progress in addressing previously identified challenges.

Through this process, the Office of Inspector General highlights activities that demonstrate
systematic or recurring performancc problems and those which are inherently difficult to
manage. Consistent with our mission, the overall goal is to focus attention on significant issues
with the objective of enhancing the effectiveness of the Department's many programs and
operations.

RESULTS

Based on work performed by the Office of Inspector General over the past year, the following
represent the most serious challenges facing the Department of Energy:

           Contract Management
           Cyber Security
           Environmental Cleanup
           Human Capital Management
           Project Management
           Safeguards and Security
           Stockpile Stewardship

It is important to note that thcse challenges are not amenable to immediate resolution. They
must, therefore, be addressed through a concentrated, persistent effort over time.

Each ycar, we also develop a "watch list," which consists of significant issues that do not meet
the "management challenge" threshold, yet warrant continued attention by Department
management. This year, the watch list includes the following operational and programmatic
functions: Infrastructure Modernization and Worker and Community Safety.

In addition to these management issues, the Department's energy security responsibilities
represent a broad national challenge. Over the last several years, energy consumption in the
United States and throughout the world has grown dramatically. As a result of this growth in
demand and the absence of a corresponding increase in supply, U.S. domestic energy costs have
increased significantly, clearly impacting the U.S. economy. The underlying geopolitical,
science, and technical issues are extraordinarily complex and, therefore, resolution will require
multi-faceted short-term and long-term efforts on a number of fronts. The Department's
involvement in energy policy development and program implementation and execution is
critically important to this process.

The Dcpartment has taken a number of positive actions to strengthen its management processes.
For examplc, in order to better address the Nation's energy situation, the Department instituted a
new strategic plan, which serves as a roadmap to address many of the challenges outlined in this
review. Focusing on energy security, environmental responsibility, scientific discovery and
innovation, nuclear security, and management excellence, the strategic plan is designed to
achieve the Department's goals. Also, in recent years, the Department has emphasized programs
and policies to strengthen and improve the health, safety, and security of Department workers,
facilities, and the public.

While the Dcpartment continues its efforts to improve in many key areas, during the last year,
the Office of Inspector General identified a number of operational deficiencies and opportunities
for cost savings, many of which are outlined in the attached report. The Department, in its Fiscrrl
Yerrr 2007 Agency Financial Report, identified a sin~ilarset of issues that impact the
Department's ability to fulfill its critical missions. In this regard, we look fonvard to working
closely with Department officials to evaluate Agency performance in an effort to improve
programs and operations, particularly as they relate to the management challenge areas identified
in this rcport.

Attachment

cc:    Dcputy Secretary
       Under Secretary for Energy
       Under Secretary for Science
       Administrator, National Nuclear Security Administration
       Chief of Staff
       Chief Financial Officer
______________________________________________________________________




                    Table of Contents

Introduction …………………………………………………………………………...…………1

Management Challenges ………………………………………………..………………………3

    Contract Management ...………………………………………………………………….…3

    Cyber Security ………………………………………………………………….…..………4

    Environmental Cleanup …………………………………………….………………………5

    Human Capital Management …………………………………………………...…..………8

    Project Management ……………………………………………………….……………….9

    Safeguards and Security ………………………………………………….………………..11

    Stockpile Stewardship ……………………………………………………………..……....13

Watch List ………………………………………………………………………………………15

    Infrastructure Modernization ……………………………………………………...………15

    Worker and Community Safety .………………………………………………..…………16

Appendices ……………………………………………………………………………….……..18

    Challenge Areas and Significant Issues Reported by Various Groups …………..…….….18

    Relevant Reports Issued in Fiscal Year 2006 ………………………………….…….……19




Page                                                      Management Challenges
______________________________________________________________________




                      Introduction

While its origins can be traced to the Manhattan Project and the race to develop the atomic
bomb during World War II, the Department of Energy (Department) has evolved to become a
multi-faceted agency that encompasses a broad range of national security, scientific, and
environmental activities. Since the passage of the Department of Energy Organization Act in
1977, the Department has shifted its emphasis and priorities over time in order to advance the
changing energy and security needs of the United States. Despite this trend, the fundamental
mission of the Department has always centered on the advancement of the national, economic,
and energy security of the Nation. In support of this mission, the Department strives to promote
scientific and technological innovation as well as directs the maintenance and environmental
cleanup of the national nuclear weapons complex. To accomplish these objectives, the
Department receives an annual appropriation of approximately $24 billion, employs nearly
115,000 Federal and contractor personnel, and manages assets valued at more than $135 billion.

As a means of helping to promote the effective, efficient, and economical operation of the
Department’s programs and operations, on an annual basis the Office of Inspector General (OIG)
identifies what it considers to be the most significant management challenges facing the Agency.
Now codified as part of the Reports Consolidation Act of 2000, this effort assesses the Agency’s
progress in addressing previously identified challenges and considers emerging issues facing the
Department. The management challenges outlined in this report constitute a major factor in
setting internal OIG priorities as it evaluates Department of Energy programs and procedures.

Representing risks inherent to the Department’s complex operations as well as those related to
management processes, these challenges are, for the most part, not amenable to immediate
resolution and must, therefore, be addressed through a concentrated, persistent effort over time.
This year, the Office of Inspector General identified the following seven management
challenges:

       •   Contract Management
       •   Cyber Security
       •   Environmental Cleanup
       •   Human Capital Management
       •   Project Management
       •   Safeguards and Security
       •   Stockpile Stewardship

In addition to identifying these challenges, the Office of Inspector General has also developed a
“watch list,” which consists of significant issues that do not meet the threshold of being
classified as management challenges, yet warrant continued attention by Department

______________________________________________________________________

Page 1                                                                               Introduction
______________________________________________________________________

management. This year, the watch list consists of the following operational and programmatic
functions: Infrastructure Modernization and Worker and Community Safety.

Although many of these challenges require long-term efforts, by aggressively addressing these
issues the Department can enhance program efficiency and effectiveness; reduce or eliminate
operational deficiencies; decrease fraud, waste, and abuse; and achieve substantial monetary
savings.




Page 2                                                                            Introduction
______________________________________________________________________




                         Management Challenges

Contract Management

The Department places significant reliance on contractors, employing over 100,000 contractor
employees to operate a vast network of laboratories, production facilities and environmental
remediation projects across the country. On an annual basis, the Department awards thousands
of contracts, grants, cooperative agreements and other instruments in pursuit of its energy and
science missions. Consuming more than 90 percent of the Department’s annual budget,
contractual instruments are awarded to commercial companies, academic institutions, and non-
profit organizations that are involved in a broad range of Department programs, including its
most sensitive national security activities. As a result, effective contract oversight is an essential
component of the Department’s management of its many programs.

During FY 2007, OIG reviews highlighted the need for improved management oversight in the
administration of Department contracts. For example, the Department’s contractor-operated
facilities use Intergovernmental Personnel Act (IPA) and Change of Station (COS) assignments
to permit contractor employees to work at other organizations. A March 2007 review to
determine whether the Department was effectively managing contractor use of IPA and COS
assignments found that the Department did not have controls in place to determine the number
and propriety of these types of assignments (The Department of Energy’s Management of
Contractor Intergovernmental Personnel Assignments, IG-0761, March 2007). The Department
was not actively reviewing the IPA and COS assignments to determine that they were cost
effective and operated in accordance with existing procedures, or that taxpayer-provided funds
supporting these assignments were put to the best possible use. While it is apparent that the
IPA/COS concept may benefit the Department, it is incumbent upon Departmental officials to
ensure that the program is managed in the best interests of the U.S. taxpayer.

In a separate review, an audit was conducted to determine whether the costs and benefits
associated with the Idaho National Laboratory’s voluntary separation program were consistent
with recent similar efforts at other Department facilities (Voluntary Separation Program at the
Idaho Cleanup Project, IG-0765, May 2007). As part of its contract proposal, the management
and operating contractor at the Laboratory included a strategy for workforce restructuring to
optimize employment levels and obtain the proper skills mix to safely address mission priorities.
The Department approved a two-phased restructuring approach, permitting the contractor to
initially separate up to 700 employees by offering a voluntary separation program.

As a result of this initiative, 291 contractor employees were separated at a cost to the Department
of $14 million. While the Idaho separation program reduced the size of the contractor workforce
and will result in monetary savings to the Department over time, the initiative proved to be
exceptionally costly and, in certain respects, inefficient. Specifically, the program provided
significantly higher incentives than were offered in other recent comparable Department
______________________________________________________________________

Page 3                                                                  Management Challenges
______________________________________________________________________

separation programs and did not retain critical skills of certain employees needed to accomplish
the work of the Laboratory. To ensure the reasonable and equitable treatment for separated
employees and their affected communities, we found that the Department needs a consistent
approach to workforce restructuring. Our report included specific recommendations to help
achieve this goal.

To its credit, the Department has developed strategies and programs to address contract
management concerns. However, given the number of contracts awarded and managed by the
Department, combined with the issues raised in our reviews, the area of Contract Management
remains a significant management challenge.

Cyber Security

As a result of the importance of Information Technology (IT) to its numerous projects,
laboratories, and assets, along with the vast array of data that is produced, cyber security has
become a crucial aspect of the Department’s overall security posture. The Department expected
to spend approximately $300 million in FY 2007 to protect its investment in IT resources. These
protective activities are critical to ensuring that systems and data remain secure and available,
particularly in light of the increasingly sophisticated attacks on the Department’s information
technology resources. In 2005, the Department established a Cyber Security Improvement
initiative, the goal of which was to identify improvements for cyber security controls within the
Agency. Over the past few years, the area of “Information Technology,” which encompassed a
broad range of IT contracts, programs, and security, had been classified as a management
challenge. Recently, however, threats to the Government’s information systems have risen to
become a national security risk. As a result of these risks and in light of recent efforts to intrude
into the Department’s systems, we have categorized Cyber Security as a significant management
challenge.

During FY 2007, the OIG conducted various reviews in this area that highlighted the need for
improvements in the Department’s overall cyber security program. As required by the Federal
Information Security Management Act (FISMA), an OIG audit was conducted to determine
whether the Department’s unclassified cyber security program adequately protects data and
information systems. In our annual evaluation of the Department’s unclassified cyber security
program, we found that while various steps had been taken to improve cyber security practices
over the past year, certain problems persisted, which require additional action in order to reduce
the risk of malicious intrusion and other external threats (The Department’s Unclassified Cyber
Security Program – 2007, IG-0776, September 2007). Specifically, we found that continuing
problems with the certification and accreditation of Department systems existed at various sites
across the complex. Additionally, while some progress had been made, the Department had yet
to establish a complex-wide inventory of information systems. Further, the Department could
not always ensure that personal information collected and maintained on agency systems was
adequately protected. These continuing concerns led us to conclude that the risk of compromise
to the Department’s information and systems remains higher than acceptable.

It must be acknowledged that the Department has in place an aggressive effort to address
existing weaknesses and has continued implementation of a plan to revitalize its cyber security



Page 4                                                                 Management Challenges
______________________________________________________________________

program. For example, an overarching policy was issued that directed senior management to
develop and implement cyber security plans within their respective organizations. During the
course of our evaluation, we also noted that a number of positive steps had been taken to help
ensure that personal information maintained in agency systems was protected.

Another important aspect of the Department’s cyber security curriculum, the Certification and
Accreditation (C&A) process, required by Federal law and Departmental guidance, is designed
to ensure that information systems are secure prior to beginning operation and that they remain
so throughout their lifecycle. The process involves determining whether system controls are in
place and operating as intended, identifying weaknesses, mitigating them to the maximum extent
possible, and officially recognizing and accepting residual risks. Previous OIG reports have
disclosed shortcomings with the Department's C&A process. These reports identified several
sites that had incomplete C&A processes and incorrect grouping of systems.

As a result of these problems and the importance of the C&A process, we conducted a January
2007 review to determine whether the Department's information systems had been appropriately
certified and accredited for operation. Despite recent efforts by the Department to improve its
process by strengthening guidance, many of its systems were not properly certified and
accredited for operation (Certification and Accreditation of Unclassified Information Systems,
IG-0752, January 2007). Without proper C&A, the Department lacks assurance that its
information systems and the data they contain are secure. In addition, accrediting officials may
have unknowingly accepted a higher risk than necessary and systems may lack the controls
needed to prevent data compromises.

During our review, we did note that the Department continues to revitalize its Cyber Security
Program throughout the complex. The Office of the Chief Information Officer recently issued
updated guidance that describes the minimum expectations for the C&A of information systems.
The National Nuclear Security Administration is also in the process of implementing its
Integrated Certification and Accreditation System (ICAS) – a program-wide application intended
to standardize the certification process within the organization. In addition, the Office of
Science's Office of Information Technology Management, in conjunction with the Office of
Independent Oversight, Office of Health, Safety, and Security, had been conducting site visits to
identify and resolve cyber security problems, provide site assistance, and follow-up on corrective
actions. This process, if implemented across the complex, should help the Department improve
its C&A process and strengthen information system security.

Environmental Cleanup

The Department’s environmental remediation activities are among its most important activities.
With the end of the Cold War, this endeavor became of even greater importance, as the
Department took on efforts to dispose of large volumes of solid and liquid radioactive waste
from over a half a century of nuclear defense and energy research activities. Currently, the
Department is responsible for cleaning more than 100 contaminated sites and disposing of
radioactive, hazardous, and mixed waste resulting from nuclear weapons production, nuclear
powered naval vessels, and commercial nuclear energy production. As a whole, these sites
encompass an area of over two million acres, which is roughly equal to the size of Rhode Island



Page 5                                                               Management Challenges
______________________________________________________________________

and Delaware combined. Due to the risks and hazards associated with this difficult and costly
task, we conducted a number of reviews over the past year to assess the progress of the
Department’s environmental cleanup activities.

For example, with an annual budget of $2 billion, the Department’s Hanford Site, located in
southeastern Washington State, is the country’s largest environmental cleanup project. In the
1950’s and 1960’s, operations at the Hanford Site generated large amounts of radioactive waste.
Subsequently, Hanford established waste burial grounds, which received nuclear waste from fuel
fabrication research and development activities during this period. Based on historical
information about the origin of this waste, the burial grounds may contain irradiated fuel
fragments, transuranic waste, and low-level waste, including some hazardous mixed wastes.
Radiation levels at the edge of the burial grounds, which are approximately four miles from the
Columbia River, have been found to be 100 times the annual radiation dose limit per one hour of
exposure. The Department, in 2005, awarded a “River Corridor” contract to, among other
things, remediate the burial grounds at an estimated cost of $136 million.

An October 2006 Office of Inspector General review disclosed that the Department’s planned
remediation actions for the burial grounds did not address all pertinent issues (Remediation of the
Waste Burial Grounds at the Hanford Site, IG-0743, October 2006). Specifically, we found that
the Department’s remediation strategy may produce a waste form or waste package that, in some
cases, will not meet current acceptance criteria for interim storage. Further, the Department’s
strategy did not reflect the cost to prepare the retrieved waste to meet waste acceptance criteria
for final disposition. Moreover, although the retrieved waste is likely to require additional
processing, the Department’s River Corridor contractor and the Hanford Site do not have the
capability to treat these wastes for interim storage and final disposal. Our review revealed that
the Department had not fully addressed these issues in its planning process. As a result, the
Department may incur up to $188 million more than planned to store, monitor, and manage
waste retrieved from the burial grounds.

The Department is also responsible for managing the agency’s spent nuclear fuel inventory and
preparing it for final disposition in a geologic repository. In 1998, legislation was enacted that
required the Department to convert the 704,000 metric tons of depleted uranium hexafluoride
stored at its gaseous diffusion plants to a more stable form. In August 2002, the Department
awarded a contract for the design, construction, and operation of conversion facilities in
Paducah, Kentucky, and Portsmouth, Ohio. The Paducah facility was designated with four
conversion lines to process its larger inventory of depleted uranium hexafluoride, while the
Portsmouth facility was designed with three conversion lines. The Department expected that it
would take approximately 25 years to convert all of the depleted uranium hexafluoride to a more
stable form.

In a March 2004 report, we noted that the Department’s conversion program could have been
improved by adding an additional conversion line to the Portsmouth facility. We found that with
a capital investment of $5.6 million, the Department could reduce lifecycle operating costs by
about $60.2 million and complete the project nearly five years sooner than anticipated. A
December 2006 follow-up review was conducted to determine if the Department had performed
a cost-benefit analysis and implemented the most cost-effective approach to converting depleted



Page 6                                                               Management Challenges
______________________________________________________________________

uranium hexafluoride (Follow-up of Depleted Uranium Hexaflouride Conversion, IG-0751,
December 2006). We found that the Department had, in fact, performed an analysis in May
2005 that showed that adding the fourth line to the Portsmouth facility could result in the
estimated savings indicated in our previous report. However, the Department had not taken the
next step to implement the most cost-effective approach to converting depleted uranium into a
more stable form. Despite the passage of time, we found that the Department could still save
$35 million in lifecycle costs by reducing the operations schedule by approximately five years
through the utilization of a fourth conversion line at the Portsmouth facility.

                                                      In addition to its environmental cleanup
                                                      efforts, the Department is responsible for
                                                      constructing a geological repository at
                                                      Yucca Mountain, Nevada. In July 2002,
                                                      after more than two decades of scientific
                                                      study, President George W. Bush signed the
                                                      Yucca Mountain Development Act,
                                                      designating Yucca Mountain as the site of
                                                      the Nation’s first geologic repository for
                                                      radioactive waste and spent nuclear fuel.
                                                      During FY 2007, the Department made
                                                      progress toward developing a license
                                                      application for submittal to the Nuclear
                                                      Regulatory Commission (NRC), which is
           View of test tunnels at Yucca Mountain     required before waste shipments to the
                                                      repository can begin. Specifically, in
October 2007, the Department certified its collection of documents to the NRC, further
advancing the Yucca Mountain repository licensing process. In addition, the Department issued
two draft supplemental environmental impact statements for public comment related to Yucca
Mountain. These steps were required prior to presenting a license application to NRC, which the
Department plans to submit by June 2008. While progress has been made in the construction
and licensing process at Yucca Mountain, the Department must work to ensure that quality
control deficiencies outlined in past OIG reviews, which could affect the ongoing design,
analysis, and eventual licensing of the repository, are not repeated.

Past OIG reviews have underscored the monumental task that the Department faces to ensure
that contaminated materials and radioactive waste are disposed of in a safe, timely, and cost
effective manner. Overseeing the largest cleanup effort in the world, the Department has made
significant progress at several sites over the past several years, including the completion of
cleanup efforts at Rocky Flats, the Lawrence Livermore National Laboratory, and the Kansas
City Plant. However, the Department continues to experience delays in accelerated cleanup
programs at other sites such as Savannah River and Hanford. As a result, Environmental
Cleanup remains a management challenge that warrants significant attention on the part of
Department management.




Page 7                                                             Management Challenges
______________________________________________________________________


Human Capital Management

In previous years, the area of Human Capital Management was classified as a “watch list” item,
not rising to the level of a significant management challenge. This year, for a variety of reasons,
the OIG has elevated Human Capital Management to the management challenges list. First and
foremost, the Department’s workforce is aging and getting smaller. Since 1995, the Department
has experienced a 30 percent reduction in the size of its workforce, and the average age of
Agency employees currently stands at more than 49 years. Adding to these existing concerns, 26
percent of the Department’s workforce will be eligible to retire in the next 3 years. The
precipitous decline in agency staffing levels, combined with possible high future attrition rates
present the Department with the difficult challenge of ensuring that its workforce has the
knowledge and skills that are necessary to fulfill the Agency’s various missions.

In the 2001 President’s Management Agenda, the Office of Management and Budget recognized
strategic management of human capital as one of the Government’s “most glaring problems.”
The Agenda specifically outlined concerns that the Department’s staff lacked adequate project
and contract management skills required to oversee large projects. Subsequently, the
Department undertook an effort to perform a critical skills gap analysis in order to review and
evaluate specific critical skill needs. During FY 2007, the Department continued these efforts to
strategically manage its workforce through newly implemented workforce planning techniques,
increased emphasis on performance and accountability, and identifying critical hiring needs. In
addition, efforts are underway to enhance overall recruitment and retention within the
Department. While these are positive steps, the area of Human Capital Management is an
ongoing challenge that will require the attention of Department management in the years to
come.

During the course of our work over the past year, issues pertaining to Human Capital
Management have arisen in various reviews primarily focused on issues of security,
environmental remediation, contract administration, and project management. For example,
during a review of the Department’s newly instituted loan guarantee program, it became apparent
that a capable and proficient staff is essential toward establishing an effective loan guarantee
program and minimizing costly mistakes. Our report on this issue concluded that as the
Department moved forward in establishing its burgeoning loan guarantee program, staffing
should be the first priority (Loan Guarantees for Innovative Energy Technologies, IG-0777,
September 2007).

Additionally, acting on the concern that the number of Departmental acquisition officials has not
kept pace with the demand for their services, we initiated a limited review of the Agency’s
acquisition workforce. Along with sound contract management principles, a stable, skilled, and
experienced workforce are key components to the effective performance of the Department’s
programs. Our review found that while the dollar value and complexity of Department contracts
has increased in recent years, the overall number of acquisition officials has essentially remained
constant. Looking at this issue from another perspective, in 2006, contract specialists accounted
for 2.9 percent of the Department’s total workforce, but were responsible for important aspects
of 90 percent of the Agency’s budget. Adding to these concerns were statistics related to the
retirement status of the Department’s acquisition workforce. Between 1998 and 2006, the



Page 8                                                                Management Challenges
______________________________________________________________________

percentage of contract specialists eligible to retire nearly tripled. Given these statistics, overall
staffing levels and the retirement status of the procurement workforce should be an issue of
interest as the Department looks to the future.

The information obtained through this examination of the acquisition workforce also helps to
provide a glimpse at the broader concerns facing the Department in the area of Human Capital
Management. Given the importance of the Agency’s mission and the fact that the Department
will spend billions of dollars pursuing programs vital to the well-being of the American public,
there are compelling reasons to ensure that the management and staffing of the workforce is a top
priority.

Project Management

The Department supports numerous unique and complex multi-million dollar projects in order to
accomplish its various missions. For several years, the OIG, the Government Accountability
Office, and the Department itself have designated project management as a high-risk area
vulnerable to waste, fraud, and abuse. In numerous cases, Department projects have routinely
been completed behind schedule and exceeded established budgets. In recent years, the
Department, in responding to identified weaknesses in the area of Project Management, has
sought to improve the discipline and structure of project performance. However, due to a variety
of reasons, our reviews continue to highlight concerns in the area of Project Management.

As part of its continuing efforts to identify, address, and resolve project management
deficiencies, in October 2007, the Department held a workshop to discuss the major issues and
associated root causes impacting project and contract management. As a result of this effort, the
Department conducted an analysis to identify the underlying root causes contributing to these
project management deficiencies. Key preliminary findings of the underlying root causes for
project and contract management shortcomings, as outlined by the workshop, included:

       •   A lack of appropriate technical and management skills and experience in the Federal
           workforce;
       •   Ineffective integration of Federal contracting and project management functions;
       •   Poor understanding of, and adherence to, project management requirements;
       •   Competing program priorities and requirements that exceed the available personnel
           and budget resources; and
       •   An inadequate training and certification program.

The root cause analysis developed by the Department is a positive step in establishing a
foundation upon which corrective measures can be implemented. In this mold, the Department
developed several recommendations that will be used to initiate a corrective action plan to
address and eliminate the identified root causes of project management concerns.




Page 9                                                                   Management Challenges
______________________________________________________________________

                                                  While these corrective actions are positive, recent OIG
                                                  reviews have identified additional improvements that
                                                  are necessary to ensure that the Department’s efforts to
                                                  implement project management principles are effective.
                                                  For example, in one of the largest and most important
                                                  of its environmental remediation projects, the
                                                  Department is constructing a Waste Treatment Plant at
                                                  the Hanford Site. The $12.2 billion facility is designed
                                                  to treat and prepare for disposal of 53 million gallons of
                                                  radioactive and chemically hazardous waste. Given its
                                                  classification as a Category II nuclear facility, the
                                                  Waste Treatment Plant must meet quality assurance
                                                  standards for nuclear facilities, which significantly
                                                  exceed those required for commercial facilities. As a
                                                  result, the design called for the installation of a
                                                  computerized integrated control network to monitor the
     Cleanup of waste tanks at the Hanford Site
                                                  operation of a number of key processes of the Plant.

In a May 2007 review, we found that the Waste Treatment Plant control system acquired by the
Department did not meet applicable quality assurance standards. Specifically, the system did not
meet the stringent procedures, plans, specifications, or work practices associated with nuclear
quality standards (Quality Assurance Standards for the Integrated Control Network at the
Hanford Site’s Waste Treatment Plant, IG-0764, May 2007). Under the circumstances, we
concluded that the Department could not ensure that the Plant’s current system is suitable for
processing nuclear waste. To address the concerns raised during our review, we recommended
that Department officials take the necessary steps to ensure that the control system for the
integrated control network at the Waste Treatment Plant meets appropriate quality assurance
standards.

Representing another activity vital to the well-being of the Nation, the Department’s Strategic
Petroleum Reserve consists of underground caverns located in the heart of the Gulf Coast region
of the United States, which currently hold nearly 700 million barrels of crude oil. The Reserve’s
primary mission is to maintain drawdown readiness to mitigate the impact of a severe crude oil
supply disruption. To facilitate this goal, the Energy Policy Act of 2005 required the Department
to expand the Reserve’s maximum storage capacity to one billion barrels of crude oil. After
evaluating various alternatives, the Department decided to develop a new 160 million barrel
storage facility at Richton, Mississippi, and to expand the storage capacity at two existing
Reserve facilities. Subsequent to the announcement of the Richton site as the preferred
expansion alternative, public and congressional entities raised concerns about the procedures
used by the Department in eliminating a salt dome in Bruinsburg, Mississippi, from
consideration as a potential expansion location. According to Department officials, the
Bruinsburg site was not selected because the salt dome was too small to meet storage needs and
the site presented significant technical risks associated with the use of deep injection wells to
dispose of nearly 1.2 million barrels per day of brine used to excavate the caverns.




Page 10                                                                       Management Challenges
______________________________________________________________________

                                                                        In order to evaluate these concerns, we
                                                                        conducted a review to determine
                                                                        whether the Department had analyzed all
                                                                        relevant data in selecting a site location
                                                                        for the expansion of the Reserve. Our
                                                                        review found that the Department and its
                                                                        contractor had in fact analyzed all
                                                                        available well and seismic data related to
                                                                        the Bruinsburg site and augmented this
                                                                        information with additional seismic
                                                                        tests. Additionally, we found that there
                                                                        are inherent uncertainties involved in the
                                                                        process of estimating the size of salt
                                                                        domes. As a consequence, the exact size
                                                                        and shape of the Bruinsburg salt dome is
 A barge docked at Phillips Terminal at the Strategic Petroleum Reserve not fully known. Overall, we
                                                                        determined that the Department took the
necessary steps to determine an adequate location for the expansion of the Reserve.

Given the nature, quantity, as well as the overall economic and environmental impact of
Department programs, the area of Project Management presents an evolving and expansive set of
challenges. As the Department itself has acknowledged, stronger policies and controls to ensure
that ongoing projects are frequently re-evaluated in light of changing missions and priorities is
central to sound management principles. While the Department has made progress, our reviews
over the past year have highlighted weaknesses in this area. Given the complexity and
importance of the Department’s numerous multi-million dollar projects and the results of recent
OIG reports, Project Management remains a significant management challenge.

Safeguards and Security

While the Department has shifted its focus over time as the needs of the Nation have changed,
special emphasis on Safeguards and Security has remained a vital aspect of the Agency’s
mission. The Department plays a fundamental role in the Nation’s security by ensuring the
safety of the country’s nuclear weapons, advancing nuclear non-proliferation, and providing safe
and efficient nuclear power plants for the United States Navy. In order to faithfully execute this
sensitive mission, the Department maintains a substantial security regime, which includes over
4,000 protective force personnel and various physical safeguards for classified material and other
sensitive property. In recent years, this management challenge was labeled “National Security.”
While the current management challenge, Safeguards and Security, encompasses Departmental
programs and operations pertaining to national security, it also serves to include a broader range
of issues such as internal security controls as well as protective force property and work
environment concerns.

The Department, in fulfilling its various missions, maintains stewardship of vital national
security capabilities, ranging from nuclear weapons to classified research and development
projects. Agency activities are focused on protecting nuclear weapons secrets, but also



Page 11                                                                         Management Challenges
______________________________________________________________________

emphasize the protection of other sensitive scientific endeavors. Over the past year, the
Department made strides toward improving critical safeguards. Specifically, during FY 2007,
the Department continued its implementation of 2004 security initiatives to improve security
throughout the Agency’s complex of laboratories and defense facilities. These included efforts
to implement necessary measures to improve material storage facilities, implement protective
force measures, and deploy new security technologies.

An area of vital importance in terms of Safeguards and Security centers on the Department’s
efforts to meet the current Design Basis Threat (DBT) policy. The DBT policy reflects the most
credible threats to Departmental assets and operations. In May 2003, the Department revised the
DBT to reflect the threat environment existing after the attacks of September 11, 2001. Changes
to site protection programs to implement the 2003 DBT were to be completed by the end of FY
2006. In October 2005, we reported that the National Nuclear Security Administration (NNSA)
did not have sufficient time to fully integrate security planning and execute a coordinated effort
to identify and evaluate cost-effective permanent upgrades to meet 2003 DBT requirements.

A June 2007 follow-up review found that NNSA sites certified that they met the 2003 DBT
policy by the end of FY 2006 as required by the Department’s policy. This most recent review
on the Department’s implementation of the DBT policy noted significant progress toward
implementing necessary security measures (Follow-Up Audit of the National Nuclear Security
Administration’s Implementation of the 2003 Design Basis Threat Policy, OAS-M-07-04, June
2007). As the Department moves forward, it must continue these efforts, focusing on increased
security requirements as outlined in the revised November 2005 DBT policy. National Nuclear
Security Administration sites are currently in the process of making additional changes to their
security programs in order to meet these requirements. While we view this progress associated
with the Department’s DBT policy as an important step, we conducted several reviews that
highlighted the need for continued improvement in this area.

In light of the importance of safeguarding weapons parts, we initiated a review to determine
whether selected NNSA sites had adequate accountability controls over non-nuclear classified
weapons parts. While the weapons incorporate numerous nuclear and non-nuclear components
or parts, even the non-nuclear parts are designated as classified since disclosure of related
information could damage national security. We found that two of the three sites reviewed had
not implemented adequate lifecycle controls and did not track many classified non-nuclear
weapons parts in their custody. Although some site organizations maintained informal tracking
systems, they lacked fundamental controls such as regularly scheduled inventories and
segregation of duties to ensure full and accurate accountability. In addition, the tracking systems
were not integrated and could not account for classified parts transferred between organizations.
During our review, the two sites could not readily account for or locate some of the items
included in our inventory sample. Accordingly, we made recommendations to improve lifecycle
accountability for all classified non-nuclear weapons parts in the Department’s possession (The
National Nuclear Security Administration’s Management of Classified Weapons Parts, IG-0772,
July 2007).

Another important area of Safeguards and Security centers on the Department’s extensive
inventory of information technology systems. While many aspects of this inventory are



Page 12                                                               Management Challenges
______________________________________________________________________

categorized under Cyber Security, specific areas such as the excessing of computers used for
unclassified controlled information involve the safeguarding of sensitive technical as well as
personal data. When unclassified computers and other electronic memory devices are
determined to be excess, they may be transferred for reuse within Department facilities or other
governmental agencies, donated for educational purposes, sold, or salvaged. However, to
prevent the unauthorized dissemination of unclassified sensitive information, Department policy
requires that, during the excessing process, data stored on computer hard drives and other
memory devices be properly removed or physically destroyed.

In two separate reviews, we concluded that the Lawrence Livermore National Laboratory and the
Idaho National Laboratory did not adhere to existing policies and internal controls for excessing
computers and other electronic memory devices to prevent the unauthorized dissemination of
unclassified controlled information. Despite the number of problems that we and others have
identified over the years with the Department’s efforts to appropriately excess computers and
other electronic memory devices, major Department elements did not implement Agency policy
specifically issued to address the appropriate excessing of computers. We concluded that added
emphasis needed to be placed on the promulgation, implementation, and execution of effective
policies and procedures over the excessing of computers and related devices (Excessing of
Computers Used for Unclassified Controlled Information at Lawrence Livermore National
Laboratory, IG-0759, March 2007; Excessing of Computers Used for Unclassified Controlled
Information at the Idaho National Laboratory, IG-0757, February 2007).

Although the Department has taken various steps over the past year to improve its overall
security posture and minimize threats, the issues disclosed in our work during FY 2007 suggest
the need for continued focus and improvement by Department management in this challenge
area. Given the fundamental mission of the Department, combined with its critical infrastructure
and assets, the challenge area of Safeguards and Security will inevitably remain a challenge area
in future years. In order to address this challenge, the Department must continue to develop
immediate and long-term strategies to minimize risk in this critically important area of the
Department’s operations.

Stockpile Stewardship

A critical mission of the Department centers on the maintenance, certification, and reliability of
the Nation’s nuclear weapons stockpile. In order to ensure that our nuclear weapons continue to
serve their essential deterrent role, the Department performs stockpile surveillance, refurbishes
selected nuclear systems, and maintains manufacturing infrastructure for the production of
replacement weapons. As has been the case in recent years, given the importance and
complexity of the Department’s role in ensuring the vitality of the U.S. nuclear stockpile,
Stockpile Stewardship has been classified as a significant management challenge.

The conclusion of the Cold War was followed by a moratorium on nuclear testing as well as an
end to the production of new nuclear warheads. Not withstanding these factors, the Department
is responsible for certifying the safety, security, and reliability of the existing U.S. nuclear
stockpile. On an annual basis, the President of the United States issues the Nuclear Weapons
Stockpile Plan. As part of the development of the Plan, the Secretary of Energy is required to



Page 13                                                              Management Challenges
______________________________________________________________________

confirm that the U.S. nuclear weapons stockpile is safe, secure, and reliable. In support of this
effort, NNSA uses statistical sampling techniques, various tests, and computer simulations to
assess weapon reliability. Through the process of “Surveillance Testing,” the performance and
reliability of randomly selected weapons and components are evaluated. In 2001, the OIG
reported that the Department was behind schedule in conducting several of the stockpile
surveillance tests. In response to our 2001 report, the Department committed to taking steps to
return stockpile surveillance testing to its planned schedule.

In an October 2006 follow-up review, we found that although some progress had been made, the
Department had not eliminated the weapons surveillance testing backlog (Follow-up Audit on
Stockpile Surveillance Testing, IG-0744, October 2006). The review disclosed that significant
backlogs existed in each of the three types of tests conducted in the surveillance program, which
include laboratory tests, flight tests, and component tests. Consistent with prior commitments,
the Department had taken steps to improve its surveillance test planning and to renew safety
studies to eliminate the backlog. However, these efforts were not fully successful. The
surveillance program’s role in assessing and ensuring confidence in the reliability of the weapons
stockpile is increasingly important as the nuclear weapons stockpile continues to age. As a result
of the continuing backlog of surveillance tests, the Department lacks vital information about the
reliability of the stockpile. Further, as a result of testing delays, important operating anomalies
or other defects could go undetected. From our perspective, elimination of the existing
surveillance testing backlog depends in large part on the successful implementation and
execution of existing Departmental initiatives as well as the realization of previous
commitments.

Another aspect of the Department’s stockpile stewardship program centers on the mission of
Technical Area 18 (TA-18) at the Los Alamos National Laboratory, which conducts nuclear
criticality experiments and hands-on training in nuclear safeguards, safety, and emergency
response. To consolidate special nuclear materials in a more secure facility, in December 2002,
NNSA announced a decision to relocate the TA-18 mission to the Device Assembly Facility at
the Nevada Test Site. Given the importance of security and safety, we conducted a review to
determine whether NNSA minimized the impact of the TA-18 relocation on mission operations
(Management Controls over the National Nuclear Security Administration’s Ability to Maintain
Capability of the TA-18 Mission, OAS-M-07-02, February 2007). Although the goal was to
establish interim operations as early as FY 2005, NNSA had not maintained the capability to
conduct unique TA-18 criticality operations. While management had a reasonable basis to delay
establishing interim operations, we concluded that full resumption of criticality operations by FY
2010 is at risk due to inadequate planning and staffing. During the course of our review, the
Department recognized the importance of re-establishing the nuclear criticality and safety
training missions and took action to establish some interim operations at the Device Assembly
Facility. While this is a positive step, prompt action is needed to ensure that a fully trained and
certified staff is available to carry out the unique functions of the TA-18 mission.

As demonstrated in recent reviews outlined above as well as those conducted in recent years, the
Department needs to continue to improve in this vital challenge area by enhancing Life
Extension Programs and improving management processes related to the cost and scheduling of
various stockpile stewardship projects.



Page 14                                                               Management Challenges
______________________________________________________________________




                        Watch List

The watch list consists of organizational and administrative issues that do not meet the threshold
of major management challenges, yet warrant continued attention by senior Department
managers. Watch list issues may include management challenges identified in previous years for
which the Department has implemented corrective actions or has achieved significant positive
outcomes. In addition, the watch list may include emerging issues that require Department
action. Last year, our watch list addressed three areas: Financial Management and Reporting,
Worker and Community Safety, and Human Capital Management. This year, Human Capital
Management has risen to become a management challenge and Infrastructure Modernization has
been added to the Watch List. However, Financial Management and Reporting has been removed
from the watch list as a result of the Department’s continued improvement associated with
preparing accurate consolidated financial statements.

Infrastructure Modernization

With assets totaling more than $135 billion, the Department manages an array of critical
infrastructure, including national laboratories, power administrations, production and
environmental cleanup facilities, and numerous operations and field offices. In many cases, the
health and vitality of the Nation’s science and technology depends on the availability and
physical condition of the Department’s advanced research facilities. Given that numerous
facilities, particularly scientific laboratories, were built decades ago, the modernization of the
Department’s infrastructure should be a central feature of the Agency’s long-term planning in
order to advance the national, energy, and economic security of the United States.

Recognizing these concerns, in 2003, the Department’s Office of Science issued a long-range
facilities plan entitled, Facilities for the Future of Science: A Twenty-Year Outlook, which
ranked various scientific facilities, including the complex of national laboratories, in terms of
scientific priority and technological readiness. Since 2003, the plan has served as a roadmap for
the future of the Department’s scientific infrastructure, while providing an overarching strategic
framework and long-term vision to guide yearly policy and funding decisions. In August 2007,
the Office of Science issued an interim report, updating the status of facilities listed in the
original 20-year outlook. According to the Office of Science, in many cases, substantial progress
has been made toward deployment. Overall, construction of new facilities and upgrades to
current facilities, integrated with the plans of the entire U.S. scientific community, will help
sustain the flow of decisive scientific ideas, greater technological innovation, and other advances
that are critical to the scientific and economic well-being of the Nation.

Additionally, in FY 2006, the Department announced the details of a comprehensive plan to
employ a smaller, safer, and more secure nuclear weapons stockpile in order to enhance the
______________________________________________________________________

Page 15                                                                                Watch List
______________________________________________________________________________


Nation’s capability to respond to changing security challenges. The Department’s plans for the
future will achieve the President's vision of the smallest stockpile consistent with our national
security needs. The Complex 2030 framework includes consolidating nuclear materials and
eliminating duplicative capabilities in and around the Nuclear Weapons Complex. The size of
the weapons complex has decreased by more than 40 percent since the end of the Cold War and
the future plans will allow NNSA to even further reduce the "footprint," or total square footage,
set aside for weapons work at eight sites around the country. To oversee this plan, known as
Nuclear Weapons Complex 2030, NNSA established the Office of Transformation under its
Deputy Administrator for Defense Programs. Over the next several years, the transformation of
the nuclear weapons security complex under this new initiative will shape the Department’s
stockpile stewardship program as well as the modernization of critical infrastructure.

The aforementioned examples of Agency efforts to modernize existing infrastructure represent a
positive step toward revitalizing the Department’s critical infrastructure. As many facilities
continue to age, future efforts pertaining to the conception, design, maintenance, and operation
of new and existing critical infrastructure are of vital importance to the Department as well as the
Nation as a whole. Given the importance of the Department’s mission in areas of energy
innovation, environmental cleanup, and national security, the overall condition, functionality,
and modernization of the Department’s infrastructure is paramount to achieving current and
future mission priorities.

Worker and Community Safety

Given the numerous large-scale facilities and dangerous materials that make up the Department,
ensuring the safety of employees and the general public is of vital importance. Safety incidents
may potentially destabilize, delay, and disrupt the Department’s critical activities, and have
intangible costs such as a negative public perception of the Department. Due to the inherently
critical nature of these issues, the need for continued vigilance and improvement is essential. As
a result, we have retained the area of Worker and Community Safety on our watch list.

Although steps that the Department took to address worker and community safety issues
prompted us to remove it from the management challenges list in FY 2003, our work continues
to identify safety issues that require the attention of senior management. For example, recent
reports in this area have focused on hazardous materials and radioactive substances, which
present a health and safety risk to Department employees as well as the public. The Department
maintains a significant inventory of radioactive substances at facilities throughout the United
States. To help ensure the safety of its workforce, the Department established a two-tiered
approach to biological or “bioassay” testing of workers to determine whether, and to what extent,
they may have absorbed radioactive material. Prior OIG reviews have identified problems
regarding the cost-effectiveness and efficiency of the Department’s bioassay monitoring
program.

Given the current emphasis on worker safety and the obvious dangers posed by excessive
radiation exposure, we conducted a review to determine whether contractor-developed bioassay
programs were effectively administered. At selected sites, we found that the confirmatory
bioassay component of contractor-developed programs to monitor the effectiveness of



Page 16                                                                                Watch List
______________________________________________________________________________


radiological engineering and administrative controls was not functioning as intended. Further,
we concluded that site-level safeguards for the bioassay component of the contractor-developed
monitoring program were inadequate and that Federal reviews by the Department were not
always sufficient. While recent actions by the Department to improve bioassay programs are
noteworthy, without an improvement in the control process over personnel monitoring,
Department and contractor employees may be at risk for occupational exposures to radioactive
material that might not be detected (Comfirmatory Bioassay Testing at Selected Sites, IG-0773,
August 2007).

Throughout the Department complex, various safety and health regulations, including
Occupational Safety and Health Administration (OSHA) regulations, National Fire Protection
Association standards, and internal Department orders, must be followed in order to ensure the
safety of the workforce as well as the general public. The Pantex Plant, for example, uses
approximately 3,000 different kinds of chemicals, including acids, corrosives, flammable and
combustible liquids, compressed gases, and explosives. The OIG conducted a February 2007
review in order to determine if the prime contractor at Pantex had in place an effective chemical
safety program. Our review concluded that in most respects the contractor at Pantex
implemented an effective chemical safety program. However, we identified several areas that
needed improvement, including significant discrepancies involving the inventory in a hazardous
chemicals storage building. Our review included several recommendations for corrective action
to improve the Pantex chemical safety program (Chemical Safety Protocols at the Pantex Plant,
IG-0756, February 2007).

To its credit, during 2007, the Department implemented a new Worker Health and Safety rule,
establishing an integrated enforcement program for nuclear safety, worker safety and health, and
integrating safety and security training throughout the Department. Additionally, the Office of
Science and the Office of Nuclear Energy continued their efforts to improve worker and
community safety through improved laboratory appraisal plans, new safety oversight models,
and upgraded training requirements. Given the inherent risks associated with the Department’s
many nuclear, scientific, and cleanup projects, the area of Worker and Community Safety is a
continual process that requires vigilant attention and improvement.




Page 17                                                                              Watch List
                                                             Appendix 1
______________________________________________________________________


    Challenge Areas and Significant Issues Reported by Various Groups

         OIG Management                                          Department Leadership
                                     GAO Challenge Area1
            Challenge                                                 Challenges2

                                    Cleanup of Radioactive &     Environmental Cleanup
       Environmental Cleanup
                                        Hazardous Waste          Nuclear Waste Disposal
                                      Security Threats and
       Safeguards and Security                                          Security
                                           Problems
                                       Nuclear Weapons
        Stockpile Stewardship                                     Stockpile Stewardship
                                          Stockpile
                                                                 Oversight of Contractors
        Contract Management          Contract Management           Acquisition Process
                                                                      Management

        Project Management                                         Project Management


           Cyber Security                                            Cyber Security


     Human Capital Management                                   Human Capital Management

                                     Leadership in Meeting
                                     Nation’s Energy Needs

          OIG Watch List
       Worker and Community
                                                                    Safety and Health
               Safety

     Infrastructure Modernization   Revitalize Infrastructure




1
 According to Major Management Challenges and Program Risks, Department of Energy
(GAO-03-100, January 2003).
2
The Department’s self-identified “Management Challenges and Significant Issues” according to
U.S. Department of Energy Performance and Accountability Report, FY 2007 (November 2007).

______________________________________________________________________
Page 18        Challenge Areas and Significant Issues Reported by Various Groups
                                                                    Appendix 2
______________________________________________________________________________


                 Relevant Reports Issued in Fiscal Year 2007
Contract Management

   •   Audit Report on Management Controls over Cash Advances for Proprietary Use of
       Office of Science User Facilities (OAS-M-07-07, September 25, 2007)
   •   Audit Report on Audit of Contract Transition Activities at Los Alamos National
       Laboratory (OAS-L-07-16, August 7, 2007).
   •   Inspection Report on Protective Force Overtime Pay at Lawrence Livermore National
       Laboratory (INS-O-07-03, July 23, 2007).
   •   Audit Report on Facility Contractor Acquisition and Management of Information
       Technology Hardware (IG-0768, June 22, 2007).
   •   Audit Report on Voluntary Separation Program at the Idaho Cleanup Project (IG-0765,
       May 18, 2007).
   •   Audit Report on Management Controls over Selected Facility Contractor Travel
       Expenses (OAS-M-07-03, April 26, 2007).
   •   Audit Report on The Department of Energy’s Management of Contractor
       Intergovernmental Personnel and Change of Station Assignments (IG-0761, March 26,
       2007).
   •   Audit Report on Recovery of Costs for Proprietary Use of the Advanced Photon Source
       (IG-0753, January 11, 2007).
   •   Inspection Report on Work Packages for Site Support Services at Los Alamos National
       Laboratory (IG-0746, November 29, 2006).

Cyber Security

   •   Evaluation Report on The Department’s Unclassified Cyber Security Program – 2007
       (IG-0776, September 18, 2007).
   •   Audit Report on Security over Personally Identifiable Information (IG-0771, July 30,
       2007).
   •   Audit Report on The National Nuclear Security Administration’s Implementation of the
       Federal Information Security Management Act (IG-0758, February 22, 2007).
   •   Inspection Report on Alleged Loss or Theft of Personally Identifiable Information at
       Pantex (INS-L-07-05, February 2, 2007).
   •   Audit Report on Certification and Accreditation of Unclassified Information Systems (IG-
       0752, January 3, 2007).
   •   Special Report on Selected Controls over Classified Information at the Los Alamos
       National Laboratory (Special Inquiry Memorandum, November 11, 2006).

Environmental Cleanup

   •   Audit Report on Follow-up of Depleted Uranium Hexaflouride Conversion (IG-0751,
       December 26, 2006).


______________________________________________________________________
Page 19                            Relevant Reports Issued in Fiscal Year 2007
                                                                    Appendix 2
______________________________________________________________________________

   •   Audit Report on Remediation of the Waste Burial Grounds at the Hanford Site (IG-0743,
       October 18, 2006).

Project Management

   •   Audit Report on Management Controls over the Hanford Environmental Information
       System (OAS-M-07-06, September 17, 2007).
   •   Special Report on Expansion of the Strategic Petroleum Reserve (IG-0767, June 19,
       2007).
   •   Audit Report on Quality Assurance Standards for the Integrated Control Network at the
       Hanford Site’s Waste Treatment Plant (IG-0764, May 4, 2007).
   •   Audit Report on The Department’s Efforts to Implement Common Information
       Technology Services at Headquarters (IG-0763, March 30, 2007).
   •   Audit Report on The Department’s Wildland Fire Planning and Preparation Efforts (IG-
       0760, March 6, 2007).
   •   Inspection Report on Sandia National Laboratory-California Procurement Card
       Program (IG-0754, January 18, 2007).
   •   Audit Report on Management Controls over the Department of Energy’s
       Superconductivity Partnerships (OAS-M-07-01, January 18, 2007).
   •   Audit Report on The Federal Energy Regulatory Commission’s Program to Oversee
       Hydroelectric Dams (IG-0750, December 18, 2006).
   •   Audit Report on The Department of Energy’s Use of the Strategic Petroleum Reserve in
       Response to Hurricanes Katrina and Rita (IG-0747, December 5, 2006).

Safeguards and Security

   •   Audit Report on National Nuclear Security Administration’s Construction of a
       Radiological/Nuclear Complex for the Department of Homeland Security (IG-0775,
       September 12, 2007).
   •   Inspection Report on Material Control and Accountability at Los Alamos National
       Laboratory (IG-0774, September 7, 2007).
   •   Audit Report on The National Nuclear Security Administration’s Management of
       Classified Weapons Parts (IG-0772, July 31, 2007).
   •   Inspection Report on Protective Force MK-19 Grenade Launcher Use at the National
       Nuclear Security Administration’s Pantex Facility (IG-0770, July 20, 2007).
   •   Inspection Report on Controls over Ammunition within the Office of Secure
       Transportation (INS-O-07-02, July 13, 2007).
   •   Inspection Report on Alleged Unnecessary Protective Force Equipment Purchases at
       Pantex (INS-L-07-07, July 11, 2007).
   •   Audit Report on Follow-up Audit of the National Nuclear Security Administration’s
       Implementation of the 2003 Design Basis Threat Policy (OAS-M-07-04, June 4, 2007).
   •   Inspection Report on Internal Controls over Computer Property at the Department of
       Energy’s Counterintelligence Directorate (IG-0762, March 28, 2007).
   •   Inspection Report on Excessing of Computers Used for Unclassified Controlled
       Information at Lawrence Livermore National Laboratory (IG-0759, March 5, 2007).

______________________________________________________________________
Page 20                            Relevant Reports Issued in Fiscal Year 2007
                                                                    Appendix 2
______________________________________________________________________________

   •   Inspection Report on Excessing of Computers Used for Unclassified Controlled
       Information at the Idaho National Laboratory (IG-0757, February 16, 2007).
   •   Inspection Report on Review of the Department of Energy’s Canine Program at Selected
       Sites (IG-0755, January 23, 2007).
   •   Audit Report on The Department’s Energy, Science, and Environment Sites’
       Implementation of the Design Basis Threat (IG-0749, December 14, 2006).
   •   Inspection Report on Material Control and Accountability at Lawrence Livermore
       National Laboratory (IG-0745, November 15, 2006).
   •   Inspection Report on Protective Force Property Management at Lawrence Livermore
       National Laboratory (IG-0742, October 11, 2006).

Stockpile Stewardship

   •   Audit Report on Management Controls over the National Nuclear Security
       Administration’s Ability to Maintain Capability of the TA-18 Mission (OAS-M-07-02,
       February 20, 2007).
   •   Audit Report on Follow-up Audit on Stockpile Surveillance Testing (IG-0744, October
       30, 2007).




______________________________________________________________________
Page 21                            Relevant Reports Issued in Fiscal Year 2007
                                                                    IG Report No. DOE/IG-0782

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:
1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?
2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?
5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:


                U.S. Department of Energy Office of Inspector General Home Page

                                       http://www.ig.doe.gov

                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.
